             U.S. Department of the Interior
                 Office of Inspector General


               FLASH REPORT




Fish and Wildlife Service:
Jackson National Fish Hatchery
In Need of Immediate Action

C-IN-FWS-0009-2007               MAY 2007
                        United States Department of the Interior
                                    OFFICE OF INSPECTOR GENERAL
                                         Washington, D.C. 20240

                                                                                          May 8, 2007

Memorandum

To:             Assistant Secretary, Fish, Wildlife and Parks

From:           Earl E. Devaney
                Inspector General

Subject:        Employee Safety Issues at the Jackson National Fish Hatchery, Jackson,
                Wyoming, U.S. Fish and Wildlife Service (Report No. C-IN-FWS-0009-2007)

       This report describes conditions at the U.S. Fish and Wildlife Service’s (Service) Jack-
son National Fish Hatchery (Hatchery) that require immediate action to protect the lives of em-
ployees working in the Hatchery buildings.

        We visited the Hatchery in January 2007 as part of our audit to determine if the Depart-
ment and bureaus have effectively identified, prioritized, and mitigated health and safety issues
related to maintenance of their constructed infrastructure that could affect employees and the
public. Although we have not yet completed this audit, we wanted to immediately bring to your
attention serious health and safety deficiencies we identified at the Hatchery.

         We found that Service employees and U.S. Geological Survey (USGS) biologists are
working in unsafe buildings at the Hatchery. The fish production and equipment buildings were
condemned and closed to the public in September 2000, after a seismic evaluation revealed
structural deficiencies so dangerous as to require the buildings to be either permanently evacu-
ated or demolished and reconstructed. In addition, the roofs on each of these Hatchery build-
ings could collapse under heavy snows. Service employees were told to move their offices to a
trailer in September 2006, but continue to
work in the fish production building to
meet their responsibilities for trout
production demands in the Federal, State,
and Tribal waters of Wyoming and Idaho.
The Hatchery is used to rear and restock
endangered trout that are lost as a result of
federal water development projects. To-
day, after nearly 8 years, visitors cannot
enter the Hatchery buildings, yet employ-
ees still work in them, and the Service has                              Fish and Wildlife Service Photo
made little progress in replacing the
condemned facilities.

                                                   1
                                                Background
Four employee houses, a trailer, several                     employees and a volunteer. USGS also
buildings, and indoor and outdoor fish                       rents space at the Hatchery for two
tanks are located on Hatchery grounds.                       biologists, who work in the equipment
The original Hatchery buildings were                         building that has been retrofitted as office
constructed in 1958. Service staff working                   space and a laboratory to test for
at the site consist of four full-time                        contamination that could affect fish.




The Teton County zoning requirements for snow load           The Jackson National Fish Hatchery buildings
for the region is 85 pounds per square foot (psf). The       appear to be structurally sound, but behind the wood
equipment building trusses were designed for a 30 psf        siding is unreinforced masonry block that crumbled
snow load, far below County standards.                       during tests for seismic strength.


                                                             The roofs also show no visible sign of
Unsafe Conditions at the                                     disrepair, but roof collapse warnings have
Hatchery Buildings                                           been issued to the employees since neither
                                                             of the Hatchery building roofs were
From the exterior, the buildings appear                      designed to withstand the heavy snows that
well kept and structurally sound. However,                   can be experienced in Wyoming. In fact,
the interior walls, constructed of                           the roof of a National Park Service
unreinforced masonry block, are marred                       building—the Moose Visitor Center for the
with structural cracks. In addition, seismic                 Grand Teton National Park—located about
monitors are attached over the cracks to                     8 miles north, did collapse under heavy
measure the movement of the walls.

In 1997, Hatchery staff were inside the
buildings when the shock of an earthquake,
centered 70 miles away, caused the walls to
sway. When tested, all the walls failed the
acceptance criteria outlined by the Federal
Emergency Management Agency. The
extent of the deficiencies revealed by 1999
seismic evaluations was such that the
buildings could not be rehabilitated. The
Service therefore determined that                                                    Fish and Wildlife Service Photo

reconstruction was the only cost-effective                   This fish production flat roof was not designed to
method that could ensure the safety of                       withstand the heavy snows that occur in Wyoming.
employees.                                                   Employees continue to work in the building
                                                             although a roof collapse warning was issued.
                                                         2
snows in 1995. Although that roof had              hazards of the Hatchery buildings, the
lasted 26 years, it ultimately failed.             project was reinserted into the Plan in
                                                   2004. The planning phase was scheduled
In 2006, Service employees were ordered            for completion in 2005 with construction
out of the buildings, except on a "limited         anticipated to be complete in 2009.
basis." However, to meet their                     However, project funding to replace the
responsibilities to rear and restock trout,        Hatchery buildings continues to be delayed
employees must enter the buildings                 and employees have continued to work in
frequently on a daily basis to feed the fish       the condemned buildings since 1999.
and maintain the fish tanks.
                                                   Our auditors were provided a memo that
 "Until a new building is constructed,             indicates funds were provided, then
                                                   rescinded, and subsequently requested to
  employees and visitors at the
                                                   be reprogrammed to the Hatchery project.
  Jackson National Fish Hatchery                   Based on discussions with the Service, we
  should be warned that these roofs                are unable to determine the actual status of
  could collapse under certain                     the Hatchery project. As shown in the
                                                   chronology (see Appendix), the Service is
  circumstances . . .
                                                   not committing the necessary resources to
 . . . Immediate evacuation should be              ensure the health and safety of employees
 carried out if the building makes any             at the Hatchery.
 creaking sounds."
 — Service Seismic Safety Coordinator
  August 2000 Roof Collapse Warning


                                                    From 1999 to the present time,
Therefore, both Service and USGS
                                                      employees have continued to work
employees continue to work in the
condemned buildings, nearly 8 years after               in the condemned buildings . . .
the buildings were declared unsafe and
identified as a high priority by the Service
because of its "exceptionally high risk"
ranking.

This situation occurred because the Service
did not follow through on the results of the
1999 seismic evaluations and its decision
to replace the buildings. The Hatchery
buildings were originally to be replaced by
the year 2005, until a series of events
culminated in the project being removed
                                                                           Fish and Wildlife Service Photo
from the Service’s 5-year Construction
Plan (Plan) in 2003. Because of the serious        The aquarium exhibits within the fish production
liability represented by the identified            building have been closed to the public for 8 years.

                                               3
Conclusion                                         This flash report is being issued to notify both
Given the history of this project’s planning       Departmental and Service management of seri-
and design and the delays for funding              ous health and safety issues that we found so
construction of replacement buildings, we          that immediate action can be taken. Our De-
are concerned for the health and safety of         partment-wide audit report will address the
Service employees. It is imperative that           overall issues that led to these health and safety
the Department and the Service take                deficiencies. The Department-wide audit is
immediate action to mitigate the health and        being done in accordance with Government
safety issues at these Hatchery buildings.         Auditing Standards issued by the Comptroller
                                                   General of the United States.
Recommendations
We recommend that the Assistant                    Please provide us with your written comments
Secretary require the Director, U.S. Fish          to this report and a summary of actions taken
and Wildlife Service to:                           or planned by June 8, 2007. Please address
                                                   your response to:
1. Protect the lives of DOI employees by
   prohibiting access to the unsafe                Ms. Anne L. Richards
   buildings.                                      Assistant Inspector General for Audits
2. Ensure that resources are made                  U.S. Department of the Interior
   available so the Jackson National               Office of Inspector General
   Fish Hatchery and storage buildings             1849 C Street, NW, MS 5341
   can be designed and constructed.                Washington, D.C. 20240
                                                   If you have comments or questions about this
                                                   report, please contact me at (202) 208-5745.




                                               4
Appendix — Chronology

1999   Experts recommend the danger posed by the buildings is such that they must be
       evacuated and that the most cost-effective solution is to demolish and reconstruct the
       buildings.

2000   The Hatchery and adjacent equipment buildings were condemned and closed to the
       public.

2001 Project listed on the Service Plan to replace the unsafe, condemned Hatchery buildings
     with estimated completion in 2005.

2002 Hatchery project remains on the Service Plan to be completed in 2005.

2003 Hatchery project was removed from the Service Plan due to (1) confusion whether the
     Hatchery was a mitigation facility, (2) Service-wide construction funding being reduced,
     and (3) a heavy wildfire season that resulted in the regional office using Hatchery pro-
     ject design funds to repay fire suppression costs owed to the Bureau of Land Manage-
     ment’s Wildland Fire Management Account.

2004 Region’s appeal to re-list project into the Service Plan is granted.

2005    A memo to the Director, dated May 31, 2005, states that the Service had received
       $354,420 in 2001 and another $79,480 in 2003 for seismic safety of the Hatchery build-
       ings. The memo further requests to reprogram $100,000 from another hatchery in South
       Carolina to the Jackson National Fish Hatchery. This reprogrammed amount would be
       used to provide temporary office space and relocation of the fish production activities
       and enable the resource program to continue, while significantly reducing the safety risk
       to the employees. Lastly, the memo states that the Construction program was severely
       impacted by the transfer of $399,000 of Hatchery project funds to repay the Wildland
       Fire Management Account.

2006   Employees ordered out of the buildings, except on a "limited basis." A listing of Health
       and Safety projects for the Service, dated November 2006, reports that the design phase
       of the Hatchery buildings was completed in 2006.

2007   Planning or construction funds have not reached the field office. The Service’s De-
       ferred Maintenance and Capital Improvement Plan indicates that $451,759 has been
       appropriated to date. As of March 2007, planning had not started and no funds had
       been received.




                                               5
